No. 20-849
•

tbe

uprone Court
of tbe

tiniteb 7"---)tate5
•
P.F.,
Petitioner,
v.
J .S., et al.,
Respondents.
•
On Petition for Writ of Certiorari
to the Kansas Supreme Court

•
SUPPLEMENTAL BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

•
P.F.
Pro Se
1106 N. Jefferson St.
Wichita, KS 67203
(316) 393-5303

•

RECEIVED
FEB 1 9 2021
g LERK
SUPREMECOU RT, U.S.

QUESTIONS PRESENTED
With the familial landscape having evolved over
the last thirty years, neither parent fitting
assumed roles and a bond formed between father
and child as a case in point, can the "biology-plus"
standard -still-be-considered constitutional when it
can no longer be justly applied?
Ultimately having a negative impact on the
children, does it serve the ends of justice if
fundamental rights afforded to parents by the U.S.
Constitution are unethically contemned when
contesting adoption?
As federal laws provide encompassing standards
with which state adoption laws comply, any action
based on the implemented statute, which a broader
definition of support is to be affixed, requires that
all relevant surrounding circumstances be
considered. Once accurately interpreted, is there
clear and convincing evidence that Father did not
provide support to Mother for the last six months of
pregnancy?

(i)

TABLE OF CONTENTS
SUPPLEMENTAL BRIEF

1

Justice Kogan in Baby E.A.W

1-5

Comparison and contrast

5-7

Malfeasance

7-9

CONCLUSION

9

TABLE OF AUTHORITIES
CASES
Shondel v. McDermott,
775 F.2d 859, 865 (7th Cir. 1985)

7

Troxel v. Granville,
530 U.S. 57, 65-66 (2000)

7

In re Petition of Doe,
627 N.E.2d 648 (III. App. Ct. 1993)

2

In Interest of B.G.C,
496 N.W.2d 239 (Iowa 1993)

2, 3

Matter of Adoption of Halloway,
732 P.2d 962, 971-72 (Utah 1986)

9

In re K.D.0,
889 P.2d 1158, 1160 (Kan. Ct. App. 1995)

5

In re Adoption of Baby Girl S,
29 P.3d 466, 467 (Kan. Ct. App. 2001)

1

In re Adoption of B.B.M,
224 P.3d 1168, 1169 (Kan. 2010)

7

In re Adoption of Baby E.A.W,
658 So. 2d 961, 971-79 (Fla. 1995)

1-5

SUPPLEMENTAL BRIEF
"In determining whether a father has failed
without reasonable cause to provide support for the
mother during the last 6 months of her pregnancy,
all the relevant circumstances must be considered.
The mother's refusal of assistance offered by the
natural father is a factor in determining if the
father provided support to the mother." See In re
Adoption of Baby Girl S, 29 P.3d 466, 469 (Kan. Ct.
App. 2001) (Emphasis added.)
In "Baby Emily," Justice Gerald Kogan wrote a
credible separate opinion. In the 26 years since,
adoption laws have remained unchanged.
"Until recently unwed fathers were regarded as
having few rights with respect to their offspring.
That situation did not change until [this] Court
issued its 1972 opinion in Stanley v. Illinois. The
Stanley opinion revolutionized the law in this area
by recognizing a due process right biological fathers
possess with respect to their offspring, though the
extent of this right has remained clouded with
doubt to the present day.
Indeed, American law on this question is most
notable today for its confusing nature. The law
now at least gives the unwed father a chance to be
heard prior to the adoption, but beyond that, little
is certain. In broad terms the national controversy
now involves two competing approaches, along with
variations of them. These are: (1) the 'biological,
rights' standard, which places heavy emphasis on
the rights of genetic parents; and (2) the 'best
interests' [standard]. These two standards each
have strong and weak points and can be applied in
varying ways, but each is exemplified in two
similar [cases]. The first involved a child popularly
known as 'Baby Jessica,' who had been put up for
adoption [on] Feb. 8, 1991.

1

The mother had listed another man as the [father],
but nine days after the adoption petition was filed,
she reconsidered and identified the actual [father].
The latter promptly challenged the adoption. After
months of legal complications, the Iowa Supreme
Court held that `[Baby] Jessica' was not available
for adoption. [That] Court noted it could not apply
a 'best interests' standard. In Interest of B.G.C, 496
N.W.2d 239 (Iowa 1993). The 'best interests'
standard was exemplified by an Illinois appeals
case involving a child widely known as 'Baby
Richard.' The mother had refused to disclose the
identity of the [father], out of concern he might veto
the placement. When he learned of the child's
existence, he quickly challenged the adoption. The
intermediate appellate court focused extensively on
a 'best interests' standard in determining that the
child was the real party in interest and that his
interests demanded he stay with the only parents
he had [known].' In re Petition of Doe, 254 Ill.
App.3d 405, 194 Ill.Dec. 311, 627 N.E.2d 648
(1993).
The Illinois Supreme Court, however, reversed
after applying the 'biological rights' standard used
in Iowa. Baby Richard thus was placed with his
[father] after spending the first three years of life
with another family. In 1983, [this] Court found
that putative fathers possess [an] 'opportunity
interest' in establishing legal fatherhood. The Lehr
Court regrettably was silent as to how we should
balance 'best interests' against kinship rights when
the two are in irreconcilable conflict, as they are
here. In DeBoer, Justice Stevens denied a stay
application from the potential adoptive parents of
[Jessica], who by then had been ordered to return
the child to her natural parent. In rejecting that
petition, Justice Stevens made the following
pertinent remarks: 'Neither Iowa law, Michigan
law, nor federal law authorizes unrelated persons
to retain custody of a child whose natural parents
have not been found to be [unfit]."
2

1C]ourts are not free to take children from parents
simply by deciding another home appears more
advantageous." See In re B.G.C, 496 N.W.2d 239,
241 (1992) (internal quotation marks and citation
omitted.) (Emphasis added.)
[I] cannot ignore the clear implication of Justice
Stevens' opinion: that the rights of biological
parents cannot be ended lightly, and especially not
because of factors that reflect more on socioeconomic
status than fitness to parent. Justice Stevens'
remarks in DeBoer—which can be harmonized with
cases announced by the full Court—imply that
great weight must be given to the biological father's
opportunity [interest]. I take this to mean that the
best interests of the child will seldom defeat a
timely and legally sufficient challenge by the
[father]. Yet another legal problem must be
addressed, and it is one that I think reflects
unfavorably on the way the courts are handling
these cases. (Emphasis added.)
The typical pattern we see in all the adoption cases
discussed above is that the mother gives the child
for adoption, the child is placed with its potential
adoptive parents, and the [father] promptly
challenges the adoption.
For legal and psychological reasons, I strongly
question the validity of placing the child with its
potential adoptive parents despite the [father's
Such action may in fact be
challenge].
unconstitutional, and it certainly contributes to the
psychological damage done to the child when and if
it must be returned to the biological parent.
My objection is this: The fact that unwed [fathers]
have a constitutionally protected 'opportunity
interest' in, their offspring necessarily implies that
they must at least be given the "opportunity" to
exercise it, absent adequate proof of prenatal
abandonment.
3

This in turn means there must be a period after
birth during which such a [father] has access to the
child.
The very fact the Supreme Court has
recognized the [father's] 'opportunity interest'
necessarily means he must at least be given that
opportunity if he has sincerely expressed interest in
exercising it and this would be true even if the
[father] and mother have irreconcilable differences.
Moreover, I am entirely unwilling to say that
purely prenatal conduct ever can demonstrate
abandonment with respect to the child absent clear
and convincing proof that the [father] either (a)
unequivocally, by word or deed, indicated a
complete and unconditional prenatal abandonment
of the child upon which others have reasonably
relied, or (b) recklessly or intentionally engaged in
conduct that posed a significant risk of detriment to
the fetus above and beyond what may be
attributable to simple lack of socioeconomic
resources. In the absence of such evidence, I believe
the father must be given a postnatal chance to
exercise his opportunity [interest].
(Emphasis
added.)
Consistent with federal case law, the trial court
erred in initially placing the child in the exclusive
custody of the potential adoptive parents based on
the record before it. Instead, an arrangement
should have been made for the [father] to have
access to the child for purposes of exercising his
opportunity interest. I cannot overlook the terrible
consequences that now have flowed from the trial
court's initial error. The record before us poses an
unambiguous nightmare: potential adoptive
parents who have had custody of the child for years
and are emotionally invested in her, [and] a father
whose rights were improperly terminated. Because
the [father] was unlawfully denied access to his
child from her birth and soon thereafter filed this
challenge, the only remedy is to return her to him.
In a real sense, the most victimized party here is
the child.
4

Where does the fault lie? It rests on inadequate
laws, procedural rules incapable of recognizing the
needs of a small growing child, state agencies too
unmindful of the [father's] rights, parties too eager
to litigate, judges and lawyers who let the child's
fate bog down in a quagmire of legal technicality.
[Leaving the child] with her adoptive family will set
a precedent I find damaging to our society's
traditional concept of a family based on blood
kinship — something the nation's highest Court
has clothed with significant legal protections.
And I genuinely believe that a concept like 'lack of
emotional support of the mother' can too easily lead
to abusive applications selectively discriminating
against the less fortunate, in favor of the privileged.
All of this points only to a single indisputable
conclusion: There is a pressing need for reforming
the way these cases are handled, at least to lessen
the delays and the damage they bring to children."
See In re Adoption of Baby E.A. W, 658 So. 2d 961,
971-79 (Fla. 1995) (Emphasis added.)
"He never inquired about the needs of the natural
mother or offered her any support in the six months
before the child was born." See In re K.D.0, 889
P.2d 1158, 1160 (Kan. Ct. App. 1995)
Conversely and in contrast to the ruling, on
03/23/18, Father, "I love this kid so much already."
(R. Vol X at 95.)
04/12, Father, "Let me know if you need my help."
(Id. at 185.)
04/18, Father, "I love our daughter too much to
make anything more important than her." (Id. at
200.)
05/16, Father, "If you need help, let me know." (Id.
at 262.)
5

05/20, Father, "Let me know if you need my help
late tonight." (Id. at 269.)
05/29, Father, "[I] just want to be there for my
daughter." (Id. at 287.)
06/11, Father, "[I] hope you know if you need
anything, I will be there . . . I will take you to lunch
soon." Later that day, "[Anything] that concerns the
health of my daughter is my concern. I want you to
be comfortable and I hope everything is okay . . . I
am there for her 100% and you too, as her mother."
(Id. at 301-303.)
06/12, Father, "I hope you have a good day. I am
here if you need me for anything." (Id. at 308.)
06/13, Father, "Let me know if you need my help
with anything. [Child] and you as my coparent are
the most important piece of my life, I will do
whatever I can to help." (Id. at 315.)
06/18, Father, "Let me know if you need anything."
(Id. at 317.)
06/22, Father, "Let me know if I can help." (Id. at
319.)
07/01, Father, "I am here if you need me, eager to
help . . . This kid has been my world." (Id. at 321,
333.)
07/07, Father, "If you need help with anything, I
am here and willing." (Id. at 358-359.)
07/09, Father, "[Let] me know if you need money."
(Id. at 365.)
07/25, Father, "[I] am worried about both of you."
(Id. at 374.)
07/26, Father, "I am 100% about that little [girl]."
(Id. at 378.)
6

07/29, Father, "[I] am just trying to be there for my
daughter." (Id. at 379.)
"A petitioner [who] seeks to terminate a father's
parental rights because the father has failed
without reasonable cause to provide support to a
child's mother in the last 6 months of her
pregnancy bears the burden of proof on all elements
of the case." See In re Adoption of B.B.M, 224 P.3d
1168, 1169 (Kan. 2010) (Emphasis added.)
"It is cardinal with us that the custody, care and
nurture of the child resides first in the parents,
whose primary function and freedom include
preparation for obligations the State can neither
supply nor hinder." See Troxel v. Granville, 530
U.S. 57, 65-66 (2000)
"A state or local government that forces a person to
live apart from his family deprives him of a form of
liberty that is protected by the due process clause of
the 14th Amendment." See Shondel v. McDermott,
775 F.2d 859, 865 (7th Cir. 1985)
07/25, Mother, "And do not go behind my back
trying to talk to all my friends and see what is
going on. That is annoying and if I wanted you to
know, I would tell you." (R. Vol. X at 374.) See In
re Baby Girl G., 452 P.3d 881 (Kan. Ct. App. 2019)
("The court added that Father had done little to find
Mother . . . .") (Emphasis added.)
Mother's testimony, "And you slept with those
three individuals within a week of each other; is
that right?"
"Correct."
"And you say that [he] was mean to you [but] he did
not call you a whore in the text messages, did he?"
"No."
7

"He did not [shame] you for any of this, did he?"
"No." (R. Vol. V at 138.)
"So, you got escalated over him just saying 'I am
putting her on my insurance, and I am looking for
an attorney to talk to about an agreement,'
correct?" "I was frustrated, correct." "Okay, and
this is an example of what stressed you out so bad?"
"This is an example, yes, him constantly
mentioning the thing with the lawyer and putting
everything in writing. I told him multiple times I
did not feel it was necessary, as he was not 100%
sure she was his, I did not want to spend money on
attorneys and writing things up and having it all
finalized when it would not even go into effect for
awhile." (R. Vol. V at 175-176.) (Emphasis added.)
"These findings were supported by the testimony
and documentary evidence presented to the court."
In re Adoption of Baby G., 466 P.3d 1207, 1212
(Kan. 2020) Mirroring the Ct. App. opinion, this is
an insidious tactic. There is confirmation within
the same opinion that such a review did not take
place. "Mt is wrong, in my judgment, to leave
unwed biological fathers languishing . . . without
even considering the merits of this case." (Id. at
1217.) (Emphasis added.)
Seemingly farfetched, when thoroughly reviewed by
a neutral party the trial transcript and each court
decision handily reveal several examples of a
foreordained agenda.
"Experts consider separation from birth parents —
even as an infant — as a traumatic event."' This
child has already experienced such trauma and
could suffer exorbitantly more if this decision
stands.

8
1
https://evolvetreatment.com/blog/early-trauma-adoptedteens/ (As visited Feb. 6, 2021)

This cannot be how adoption was envisioned.
Even in vicissitude, Father continues to study
See Matter of
correlating child development.
Adoption of Halloway, 732 P.2d 962, 971-72 (Utah
1986) ("While stability in child placement should be
a paramount value, [it] cannot be the sole yardstick
by which the legality of a particular custodial
arrangement is judged. Such a standard would
reward those who obtain custody, whether lawfully
or otherwise, and maintain it during any ensuing
and protracted litigation.")
There is repeated case law nationwide regarding fit
parents and mothers refusing assistance, both
factors here, yet this case did not coalesce. Father's
contentions are not baseless. He should have
prevailed at trial, which had no basis to proceed
until months after the initial petition.
Being of national importance, this case presents an
opportunity to settle dubiety surrounding parental
rights regarding infants placed for adoption at
birth and to "define, constitutionally, the term
parent and incorporate unwed fathers into that
definition."
CONCLUSION
For the foregoing reasons and those set forth in the
petition and reply, the petition for a writ of
certiorari should be granted.
Respectfully submitted,

Pauf Fiscus III
1106 N. Jefferson St.
Wichita, KS 67203
(316) 393-5303

9

